Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     MEDICARE HOSPICES:

      CERTIFICATION AND

        CENTERS FOR

 MEDICARE & MEDICAID SERVICES 

          OVERSIGHT 





                    Daniel R. Levinson

                     Inspector General 


                       April 2007

                     OEI-06-05-00260

                   Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95–452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste, abuse,
and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. Specifically, these evaluations focus on preventing fraud, waste, or abuse and
promoting economy, efficiency, and effectiveness in departmental programs. To promote
impact, the reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust
enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal
support in OIG's internal operations. OCIG imposes program exclusions and civil monetary
penalties on health care providers and litigates those actions within HHS. OCIG also
represents OIG in the global settlement of cases arising under the Civil False Claims Act,
develops and monitors corporate integrity agreements, develops compliance program
guidances, renders advisory opinions on OIG sanctions to the health care community, and
issues fraud alerts and other industry guidance.
I N T R O D        U C T      I O N
Δ    E X E C U T I V E                                S U M M A R Y                                         



                    OBJECTIVE
                    To assess, for Medicare hospices certified by State agencies:

                    1.	 the timeliness and results of hospice certification surveys performed
                        by State agencies, and

                    2.	 the extent of the Centers for Medicare & Medicaid Services (CMS)
                        oversight of the Medicare hospice program.


                    BACKGROUND
                    Medicare Part A covers hospice care provided to terminally ill patients.
                    In recent years, this Medicare benefit has grown in terms of patients
                    served, expenditures, and number of hospices.

                    Organizations that provide hospice care must be certified by State
                    agencies as meeting minimum participation standards prescribed by
                    CMS. CMS uses Federal comparative surveys and annual performance
                    reviews to evaluate State agencies’ survey and certification operations.
                    Certified hospices must undergo recertifications; however, neither law
                    nor regulation specifies the frequency of recertification. Instead, CMS
                    notifies States of the certification frequency for hospices through its
                    annual budget request policy memorandum to the State agencies. For
                    fiscal year (FY) 2005, CMS scheduled hospice certification surveys for
                    every 6 years, but for FY 2006, CMS changed the frequency to every
                    8 years on average. This change was the result of budget reductions.

                    Whether 6 years or 8 years, the frequency of hospice certification is far
                    different from the certification frequencies required for nursing homes,
                    hospitals, and home health agencies. While the priority for hospice
                    certification may be lower, CMS did direct State agencies, for FY 2006
                    surveys, to target 5 percent of the hospices most at risk for having
                    quality problems. Using the results of certification surveys and
                    complaint investigations, CMS has the authority to apply only one
                    enforcement remedy—termination of poorly performing hospices from
                    Medicare.

                    The report findings are based primarily on analysis of data from CMS’s
                    Online Survey Certification and Reporting system. We analyzed these
                    data for 2,537 hospices that were certified by State agencies and were
                    Medicare providers as of July 5, 2005. We also interviewed staff at
                    CMS headquarters and regional offices, State agencies, and professional
                    organizations knowledgeable about hospice issues.

 OEI-06-05-00260         M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT       i
E X E C U T I V E                 S U            M M A R Y 





                   FINDINGS
                   Eighty-six percent of hospices were certified within 6 years, as
                   required, while 14 percent averaged 3 years past due. Hospices that
                   were 3 years past due for certification had not been surveyed for
                   9 years—3 years longer than the CMS standard at the time of our review.
                   Two CMS regions accounted for 56 percent of the past-due hospice
                   certifications: Region V (33 percent) and Region IX (23 percent). Only
                   24 percent of all certified Medicare hospices are located in these two
                   regions.

                   Applying an 8-year certification frequency to our hospice data decreased
                   the percentage of past-due certifications from 14 percent to 9 percent.
                   However, because the FY 2006 standard is an average rather than a
                   defined interval, it is possible that a State agency could certify some
                   hospices less often than every 8 years and still meet the requirement.
                   Health deficiencies were cited for 46 percent of hospices surveyed and
                   for 26 percent of hospices investigated for complaints; many
                   deficiencies related to patient care. The most frequent health
                   deficiencies cited during certification surveys and complaint investigations
                   centered on patient care planning and quality. These deficiencies
                   indicated that written care plans either were not prepared or lacked
                   important elements, or that measures to ensure quality patient care were
                   insufficient. Fifteen percent of hospices surveyed between July 2002 and
                   July 2005 received another citation for the same deficiency cited during a
                   previous survey. Of the hospices with deficiencies cited during complaint
                   investigations, 49 percent were also cited for the same deficiencies during
                   certification surveys over the same period.
                   CMS and State agencies rarely use methods other than certification
                   surveys and complaint investigations to monitor or enforce hospice
                   performance. CMS rarely includes hospices in Federal comparative
                   surveys or annual State performance reviews. Further, both CMS and
                   State agencies infrequently analyze existing hospice performance data.
                   Finally, hospice deficiency data from certification surveys do not include
                   ratings for scope (how many patients are affected) and severity (extent to
                   which patients’ safety or health is affected), and individual patient
                   assessment data for hospices are not available. For all these reasons,
                   targeting at-risk hospices, as CMS required for FY 2006, may be difficult
                   for State agencies. CMS has not provided State agencies any direct
                   guidance or specific criteria to identify the at-risk hospices. From July


 OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   ii
E X E C U T I V E                 S U            M M A R Y


                   2002 to July 2005, CMS terminated one hospice from Medicare, and few
                   State agencies exercised their own enforcement measures.


                   RECOMMENDATIONS
                   To improve oversight of the Medicare hospice program, we recommend
                   that CMS:
                   Provide guidance to State agencies and CMS regional offices
                   regarding analysis of existing data and identification of at-risk
                   hospices. CMS should provide written guidance and/or training that
                   specifies key performance indicators or analysis techniques for hospice
                   data. CMS should also include in its written guidance and/or training
                   how States should identify, using analysis of available data, which
                   hospices are at risk for quality problems. Instituting scope and severity
                   ratings similar to those used for nursing facility deficiency data could
                   provide another method for identifying at-risk hospices. Alternatively,
                   CMS could develop a standard set of indicators for hospice performance,
                   complete data analysis centrally, and ensure that resulting reports are
                   routinely provided to CMS regional office and State agency staffs.

                   Include hospices in Federal comparative surveys and annual State
                   performance reviews. These surveys and reviews allow CMS to ensure
                   that State agencies meet CMS’s performance requirements and to
                   understand overall State agency operations.

                   Seek regulatory or statutory changes to establish specific
                   requirements for the frequency of hospice certification. Section
                   1861(dd)(2)(G) of the Social Security Act allows the Secretary to
                   promulgate other regulatory requirements for hospices. CMS should
                   seek a regulatory change that would specify a fixed certification
                   frequency for Medicare hospices with commensurate funding for staffing
                   and implementation. In lieu of a regulatory change, CMS could pursue
                   a statutory change and related funding. Such regulatory or statutory
                   and related budgetary changes could help to ensure that CMS
                   maintains its certification schedules for hospices.

                   CMS should also seek to increase the frequency of hospice certifications
                   as part of the regulatory or statutory change. The accrediting
                   organizations, the Joint Commission for the Accreditation of Healthcare
                   Organizations and the Community Health Accreditation Program, have
                   set an industry standard of certification every 3 years for hospices. For


 OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   iii
E X E C U T I V E                 S U            M M A R Y


                   CMS, surveys of hospices are the primary method for gaining
                   information about hospice performance in caring for patients.
                   Seek legislation to establish additional enforcement remedies for
                   poor hospice performance. Currently, CMS’s only enforcement
                   remedy against poorly performing hospices is termination of the hospice
                   from the Medicare program. Our results showed that termination is
                   rarely imposed. Less severe remedies could be effective for addressing
                   performance problems that do not merit termination. A potential array
                   of enforcement measures could include directed plans of correction,
                   directed in-service training, denials of payment for new admissions, civil
                   monetary penalties, and imposition of temporary management.


                   AGENCY COMMENTS
                   In its comments on the draft report, CMS concurred with the
                   recommendation to provide greater guidance concerning analysis of
                   existing data and identification of at-risk hospices. To this end, CMS
                   reports exploring and implementing methods to become more efficient
                   in targeting its limited resources toward providers most in need of
                   closer oversight. CMS also concurred with the recommendation to
                   include hospices in annual State performance reviews. However, CMS
                   did not concur with greater inclusion of hospices in Federal comparative
                   surveys, citing budget limitations. Additionally, CMS did not concur
                   with the recommendation that it make a regulatory change to establish
                   frequency requirements for hospice certification. CMS stated that,
                   given resource issues, a statutory change, necessitating congressional
                   action, is more appropriate. Finally, CMS is still considering the last
                   recommendation: to pursue new enforcement remedies for poor hospice
                   performance.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We continue to recommend that CMS include hospices in the Federal
                   comparative surveys and set a frequency requirement for hospice
                   certification. We acknowledge that this frequency requirement can be
                   set by a statutory change. Consequently, we changed the
                   recommendation that was included in the draft report to include the
                   option of seeking the requirement through either a statutory change or
                   a regulatory change. We look forward to CMS’s comments on this final
                   report addressing its consideration of establishing additional
                   enforcement remedies for poor hospice performers.

 OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   iv
Δ   T A B L E          O F           C O N T E N T S                              





          EXECUTIVE SUMMARY .................................... i




          INTRODUCTION............................................ 1



          FINDINGS.................................................. 8

                    Eighty-six percent of hospices were certified timely; 14 percent 

                    were past due . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                    Deficiencies in patient care were cited during certification 

                    surveys and complaint investigations. . . . . . . . . . . . . . . . . . . . . . . 10 


                    CMS and State agencies rarely use methods other than 

                    certification surveys and complaint investigations . . . . . . . . . . . . 12 



          R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                    Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                    Office of Inspector General Response . . . . . . . . . . . . . . . . . . . . . . . 20 




          E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 



          A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 

                    A: 	Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 


                    B: 	FY 2005 Selected CMS Priority Survey Activities . . . . . . . . . . 31 


                    C: 	FY 2006 Changes to Selected CMS Priority 

                        Survey Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32 


                    D: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34 



          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39 

ID NE TS RI O
            G D
              N U ~C T D I RO AN F T
Δ     I N T R O D U C T I O N                                                 




                    OBJECTIVE
                    To assess, for Medicare hospices certified by State agencies:

                    1.	 the timeliness and results of hospice certification surveys performed
                        by State agencies, and

                    2.	 the extent of the Centers for Medicare & Medicaid Services (CMS)
                        oversight of the Medicare hospice program.


                    BACKGROUND
                    Medicare Hospice Benefit
                    The Tax Equity and Fiscal Responsibility Act of 19821 established the
                    Medicare hospice benefit for eligible beneficaries under Medicare
                    Part A.2, 3 As defined by CMS, hospice care focuses on relief of pain and
                    uncomfortable symptoms for terminally ill patients, rather than
                    curative care or life-prolonging treatment.4,5 Medicare hospice services
                    include nursing care, counseling, and home health aide services, as well
                    as drugs and medical supplies. Hospice care is provided either by
                    freestanding hospices or by hospices owned or operated by home health
                    agencies, hospitals, and skilled nursing facilities. In the late 1980s,
                    nearly all patients enrolled in hospice care had a primary diagnosis of
                    cancer,6 but by 2004, more than half of hospice enrollment was for other
                    terminal illnesses, such as end-stage heart disease or dementia.7
                    Hospice Utilization and Cost
                    In recent years, the Medicare hospice benefit has grown in terms of
                    patients served, number of hospices, and expenditures. From 2001 to
                    2004, the number of patients using Medicare hospice services increased
                    nearly 34 percent (from 605,239 beneficiaries to 809,431 benficiaries),8
                    while overall enrollment in Medicare rose 4.25 percent.9 As of
                    July 5, 2005, according to CMS data, 2,774 hospices were certified for
                    Medicare,10 an increase of approximately 11 percent since 2003.
                    Expenditures for the Medicare hospice benefit have risen from
                    $3.5 billion in 2001 to $8.6 billion in 2005, a 145-percent increase.11, 12
                    In 2005, expenditures for Medicare hospice services accounted for
                    4.8 percent of total Part A expenditures.13
                    Hospice Participation In Medicare
                    Medicare regulations set minimum standards, called conditions of
                    participation, with which hospices must comply to participate in the
                    Medicare hospice program.14 On May 27, 2005, CMS published a

  OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   1
I N T R O D        U C T       I O N


                    proposed rule modifying the current conditions of participation for
                    Medicare hospices; the comment period ended July 26, 2005.15 As of
                    October 2006, CMS had completed its evaluation of all comments
                    received.16
                    CMS approves hospices for Medicare participation after receiving
                    results of hospice surveys from one of two entities—a State agency or a
                    recognized accreditation organization.17 These surveys assess the
                    extent to which hospices meet the conditions of participation. As of
                    July 2005, State agencies had certified 92 percent of Medicare
                    hospices.18 State surveyors had reviewed each of these hospices and
                    had indicated to CMS that the hospices’ certification results met the
                    minimum requirements for Medicare participation. For the same
                    period, the remaining 8 percent of Medicare hospices had undergone
                    accreditation surveys deemed by CMS to meet or exceed the standards
                    of the Medicare conditions of participation. The accreditation
                    organizations recognized by CMS for this purpose are the Community
                    Health Accreditation Program (CHAP) and the Joint Commission for
                    the Accreditation of Healthcare Organizations (JCAHO).
                    Hospice Certification Surveys by State Agencies
                    State agencies, under contract to CMS, conduct onsite certification
                    surveys to determine whether hospices meet Medicare health, safety,
                    and program standards. They conduct surveys for: (1) an initial
                    certification, (2) a recertification, (3) a followup or revisit after an earlier
                    survey has cited deficiencies, and (4) an investigation of complaints.
                    During all surveys, State surveyors must cite deficiencies when hospices
                    fail to meet conditions of participation or other CMS program
                    standards.
                    CMS guidelines on certification frequency. Neither law nor regulation
                    specifies the frequency of Medicare certification surveys for hospices. In
                    contrast, nursing facility certification is required by statute at least
                    every 15 months, with a 12-month average.19 Home health agency
                    certifications are due at least every 36 months.20 Accreditation
                    organizations survey hospices every 3 years.

                    CMS establishes the frequency and priority of hospice certification as
                    part of its budget process for State agency survey and certification
                    activities. The CMS fiscal year (FY) 2005 Budget Call Letter, which
                    provided survey instructions to the State agencies, required certification
                    surveys of Medicare hospices at least every 6 years.21 This 6-year
                    standard has been in effect since FY 2000. The FY 2005 Budget Call

 OEI-06-05-00260          M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   2
I N T R O D       U C T         I O N 




                  Letter also ranked survey and certification activities in a four-tier
                  priority system. Tier I, the highest priority, encompassed activities
                  required by statute and thus did not include hospices. CMS required
                  State agencies to complete all Tier I activities before completing those in
                  Tiers II through IV, but planning for all survey and certification
                  activities in a fiscal year was ongoing. Complaint investigations for all
                  provider types, including hospices, fell under Tier II. Hospice
                  certifications, with a few exceptions, appeared in Tier III. (See
                  Appendix B for a more detailed explanation of FY 2005 survey and
                  certification priorities.)

                  In August 2005, CMS released its FY 2006 Mission & Priority
                  Document,22 which, like the FY 2005 Budget Call Letter, provided
                  survey instructions to the State agencies. For FY 2006, hospice
                  certifications were still a Tier III priority; however, the frequency of
                  hospice certification changed from every 6 years to every 8 years on
                  average. CMS attributed this change in survey frequency specifically to
                  “reductions from the President’s 2005 proposed budget which affected
                  the base for 2006.”23 CMS also noted in this document that part of this
                  reduction had targeted the survey and certification functions. CMS
                  added a new Tier II requirement for a 5-percent targeted survey of
                  State-identified hospices most at risk for quality problems. CMS did not
                  specify how State agencies are to identify at-risk hospices. Finally,
                  under Tier IV, States are encouraged to conduct additional surveys and
                  bring the average down to 6 years, if resources permit. (See Appendix C
                  for a more detailed explanation of FY 2006 survey and certification
                  priorities.)
                  Complaint investigations. Complaints against certified hospices to the
                  State agencies by various parties, e.g., ombudsmen, patients, or
                  patients’ families, trigger an investigation process which often begins
                  with an onsite visit. Surveyors determine whether they can
                  substantiate allegations and may identify other deficiencies during the
                  investigations. State surveyors, at their discretion, may expand the
                  investigations into full certification surveys. As noted, complaint
                  investigations fall into Tier II and thus have higher priority than
                  hospice certification, found in Tier III.




OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   3
I N T R O D        U C T      I O N


                    CMS Oversight Activities
                    CMS is responsible for imposing remedies or sanctions on noncompliant
                    hospices and for conducting Federal monitoring surveys.
                    Enforcement for noncompliance. State surveyors cite deficiencies against
                    hospices that are not compliant with the Medicare conditions of
                    participation. If they are not corrected in a timely manner, some cited
                    deficiencies may be severe enough to warrant enforcement actions by
                    CMS or State agencies. Deficiencies cited against hospices, unlike those
                    against nursing facilities, have no ratings for scope (how many patients
                    are affected) or severity (extent to which patients’ safety or health is
                    affected). Termination from the Medicare program is the only
                    enforcement action that CMS can initiate against noncompliant
                    hospices.24 In contrast, CMS may impose civil monetary penalties or
                    denial of Medicare payments as well as terminations on nursing
                    facilities. State agencies may also initiate their own enforcement
                    actions against hospices based on survey results.
                    Federal monitoring surveys. CMS monitors State agencies’ Medicare
                    certification processes through two Federal monitoring surveys—
                    comparative surveys and annual performance reviews. CMS uses
                    comparative surveys to assess State surveyor performance through a
                    Federal resurvey, conducted within 60 days of a State certification
                    survey of any Medicare provider subject to these surveys, which
                    includes hospices. CMS also conducts annual performance reviews of
                    State agencies to evaluate survey and certification operations overall.
                    CMS Oversight Data
                    As part of its oversight responsibility, CMS collects national and State
                    survey data, including data for Medicare hospices certified by the State
                    agencies, which it maintains in its Quality Improvement & Evaluation
                    System (QIES). One component of QIES is the Online Survey
                    Certification and Reporting system (OSCAR), from which CMS can
                    extract national and State data. OSCAR contains provider performance
                    data collected from State certification surveys. It also maintains
                    information about Federal monitoring surveys and enforcement actions.
                    State agencies enter provider, survey, and complaint information into
                    CMS’s Automated Survey Processing Environment (ASPEN), which is
                    uploaded to the OSCAR system.25




 OEI-06-05-00260         M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   4
I N T R O D        U C T      I O N 




                    METHODOLOGY
                    We based the report findings primarily on analysis of OSCAR data for
                    all hospices that were certifed for Medicare by State agencies and were
                    active hospice providers as of July 5, 2005. Our analysis did not include
                    the 8 percent of hospices with JCAHO or CHAP accreditation that CMS
                    had deemed as meeting Medicare standards. To assess the extent to
                    which State agencies met CMS requirements for frequency of hospice
                    certification, we applied CMS’s criteria for FY 2005 (certification every
                    6 years) and FY 2006 (certification every 8 years on average). We
                    analyzed health-related deficiencies cited against hospices by State
                    agencies, but we did not include life-safety code deficiencies. Interviews
                    with CMS staff and surveys of State agencies and accreditation
                    organizations provided additional information on oversight activities
                    from State, national, and provider perspectives. (See Appendix A for a
                    detailed methodology.)
                    Hospice Study Population
                    Of the 2,774 hospices in the OSCAR database, we identified 2,537 that
                    were certified for Medicare by State agencies and that were active
                    Medicare providers as of July 5, 2005. We eliminated 220 accredited
                    hospices that CMS had deemed as meeting Medicare standards and
                    17 hospices that had received no Medicare hospice payments in
                    CY 2004.26
                    Data Collection and Analysis
                    We determined from the OSCAR data the frequency and results of
                    hospice certification surveys, results of complaint investigation surveys,
                    completion of Federal monitoring surveys, and enforcement actions
                    taken. Data on Medicare payments to the State-certified hospices from
                    1998 to 2004 came from the Healthcare Information System (HCIS).
                    We conducted followup with the five States that had the greatest
                    number of hospices past due for certification or the longest past-due
                    certifications. We surveyed all State agencies to obtain information
                    about their actions and priorities regarding hospices. Finally, we
                    interviewed key staff from CMS headquarters and regional offices and
                    from professional associations concerning oversight of Medicare
                    hospices.
                    Certification frequency. Using OSCAR data, we calculated the
                    frequency of certification surveys and the number of Medicare
                    hospices for which State agencies met the 6-year standard for
                    certification. We used two timeframes:

 OEI-06-05-00260         M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   5
I N T R O D        U C T      I O N 




                          Prior Survey◄-------------------►Last Survey◄------------------►July 5, 2005


                    1.	 Date of last certification survey to July 5, 2005. For each
                        State-certified hospice, we calculated the elapsed time between its
                        last certification survey and July 5, 2005. This identified hospices
                        for which the last certification surveys were (a) 6 years old or less
                        or (b) more than 6 years old.

                    2.	 Date of prior certification survey to date of the last certification
                        survey. For each hospice in group (a) above, we calculated the
                        elapsed time between the prior certification survey and the last
                        certification survey. We then compared the elapsed times to the
                        6-year standard. This analysis does not include hospices that
                        were certified as new providers during their last surveys.

                    Based on the results for timeframe 1, we contacted five States that
                    had the greatest number of hospices with (1) past-due certifications
                    and (2) certifications more than 6 years past due; i.e., the last
                    certification was 12 or more years ago. Three States (California,
                    Illinois, and Michigan) met both criteria. We then selected the next
                    State remaining on each list (Minnesota and Maryland). For these
                    States, we verified whether they had reported all survey activities
                    and we inquired about what circumstances, if any, contributed to the
                    past due certifications we had identified. Finally, for the timeframe
                    encompassing the date of each hospice’s last certification survey to
                    July 5, 2005, we calculated how many hospices in our study
                    population had been certified within 8 years.
                    Survey results, Federal monitoring, and enforcement. We analyzed 3 years
                    of OSCAR data (July 5, 2002, through July 5, 2005) for information
                    about certification deficiencies for 1,394 hospices surveyed in that
                    period. We also examined the same OSCAR hospice data for all 981
                    complaint investigations conducted and for Federal monitoring surveys
                    and enforcement actions, if any.

                    From these data, we determined the number of hospices cited for
                    health-related deficiencies and the types and frequencies of these
                    deficiencies. Our analysis did not include deficiencies cited for
                    life-safety codes, which address building, fire, and environmental codes.
                    We also determined the number of complaint investigation surveys for
                    hospices, frequency of deficiencies cited, and survey outcomes.



 OEI-06-05-00260         M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   6
I N T R O D        U C T      I O N


                    From the information on Federal monitoring surveys, we identified the
                    extent to which the surveys included hospices. We also counted how
                    many terminations for enforcement purposes were either initiated or
                    completed against hospices. Through interviews, we addressed CMS’s
                    annual State agency performance reviews with respect to hospices.
                    Lastly, discussions with CMS and a survey of all State agencies
                    provided qualitative data on workload priorities and enforcement tasks.
                    CMS monitoring and oversight. We conducted structured interviews with
                    staff from CMS headquarters and regional offices to obtain information
                    on the current hospice issues affecting oversight and on the extent to
                    which CMS uses survey data to monitor hospice performance. We also
                    interviewed staff at professional hospice associations and accreditation
                    organizations—namely, the National Hospice and Palliative Care
                    Organization (NHPCO), the National Association for Home Care and
                    Hospice, CHAP, and JCAHO—for their perspectives of CMS’s
                    monitoring and oversight activities.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-06-05-00260         M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   7
F   I N D I N G       S
Δ       F I N D I N G S 




       Eighty-six percent of hospices were certified               For the period of our review,
       within 6 years, as required, while 14 percent               the CMS standard required
                                                                   hospice certification every
                         averaged 3 years past due
                                                                   6 years. Eighty-six percent of
                      hospices (2,172 of 2,537) had been certified within the 6 years ending
                      July 5, 2005. The remaining 14 percent of hospices (365) were past due
                      for certification because the last certification for each had occurred more
                      than 6 years before July 5, 2005.
                      On average, hospices past due for certification had not been surveyed for
                      9 years—3 years longer than the CMS standard
                      The extent to which the 365 hospices were past due for certification
                      ranged from 34 days to more than 13 years, averaging 3 years past due.
                      Eleven percent of these hospices were more than 6 years past due, with
                      their last certification surveys having occurred more than 12 years
                      before July 5, 2005 (see chart below). Medicare payment data from
                      1998 to 2004 show that all hospices with past-due certifications received
                      Medicare payments for each of these years. In 2004 (the last full
                      calendar year of payment data available), Medicare payments to each
                      hospice with a past-due certification averaged $2.7 million.


                                                             Hospices With Past-Due Certifications
                                                                          (N = 365)
                              Percentage of Hospices




                                                       70%
                                                                  59%
                                                       60%
                                                       50%
                                                       40%
                                                                                      30%
                                                       30%
                                                       20%
                                                                                                          11%
                                                       10%
                                                        0%
                                                              up to 3 Years       3-6 Years             >6 Years

                                                                      Number of Years Past Due
                       Source: Office of Inspector General (OIG) analysis of elapsed time between last survey and 

                       July 5, 2005, CMS OSCAR data.




                      Two CMS regions accounted for 56 percent of hospices with past-due
                      certifications: Region V (33 percent) and Region IX (23 percent). Only
                      24 percent of all certified Medicare hospices are located in these two
                      regions. Three States account for 41 percent of all hospices with
                      past-due certifications: Michigan (12 percent) and Illinois (12 percent)
                      in Region V, and California (17 percent) in Region IX.

    OEI-06-05-00260          M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT         8
F   I N D I N G 
S


                      To verify our findings regarding past-due certifications, we contacted
                      State agency staff in five States (California, Illinois, Michigan,
                      Minnesota, and Maryland) that had the most hospices with past-due
                      certifications or the most past due by 6 or more years. Staff from these
                      States reported that their workload priorities based on required State
                      and Federal activities contributed to the delays we identified, as did
                      resource constraints, such as insufficient or untrained staff to conduct
                      surveys.27
                      Of hospices with timely certifications in their last cycles, 33 percent had
                      been certified late in their prior cycles
                      Of the hospices that were certified within 6 years as of July 2005,
                      70 percent (1,515 of 2,172) had earlier certifications also subject to the
                      6-year standard. Thus, we were able to calculate for these
                      1,515 hospices the elapsed time between their prior certification surveys
                      and their last certification surveys. For 33 percent of these hospices,
                      the elapsed time was more than the required 6 years.28
                      Changing the certification frequency to every 8 years on average will likely
                      improve the compliance rate, but some hospices may still be certified less
                      often than every 8 years
                      In the FY 2006 Mission & Priority Document of August 2005, CMS
                      notified State agencies of revised hospice survey and certification
                      requirements for FY 2006. According to this document, CMS made
                      changes to FY 2005 certification frequency for some providers due to
                      reductions in the President’s 2005 proposed budget. To address this
                      reduction, one change decreased the FY 2005 hospice certification
                      frequency from every 6 years to every 8 years on average per State with
                      a new Tier 4 expectation that additional surveys be conducted to bring
                      the 8-year average up to a 6-year average.

                      To determine the effect of the FY 2006 requirement, we applied an
                      8-year certification frequency to our hospice data but did not calculate
                      an overall average for certification frequency. This reduced the
                      proportion of past-due certifications from 14 percent under the FY 2005
                      requirement to 9 percent under the FY 2006 requirement. However,
                      because the FY 2006 standard is an average rather than a defined
                      interval, it is possible that a State agency could certify some hospices
                      less often than every 8 years and still meet the requirement.

                      Certifying hospices no more often than every 6 years was a concern
                      expressed by staffs from two professional associations knowledgeable
                      about hospice issues, NHPCO and JCAHO. During interviews, each

    OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   9
F    I N D I N G      S


                   association’s staff indicated that the priority and frequency of hospice
                   certification should be consistent with the priority and timeframes
                   required for other facilities providing care for seriously ill patients,
                   i.e., hospitals, nursing facilities, and home health agencies. Some State
                   agency and CMS regional office staff expressed similar concerns but
                   attributed the change to the budget reductions and the lack of
                   legislative or regulatory requirements. However, State agency staffs
                   indicated that they generally schedule work for all providers based on
                   the higher priority levels of statutory and regulatory requirements
                   reflected in the CMS budget letter instructions.

                                                            From July 2002 to July 2005,
    Health deficiencies were cited for 46 percent
                                                            State agencies conducted 1,815
     of hospices surveyed and for 26 percent of             certification surveys for 1,394
    hospices investigated for complaints; many              Medicare hospices. Of these
              deficiencies related to patient care          hospices, 46 percent (642 of
                                                            1,394) were cited for at least one
                   health deficiency, and 15 percent (213 of 1,394) received repeat citations
                   for the same deficiencies cited during previous surveys.29 Some hospices
                   had multiple survey visits, presumably to follow up on prior deficiencies.

                   In the same timeframe, State agencies conducted 981 complaint
                   investigations for 577 hospices. Of these hospices, State agencies cited
                   health deficiencies for 26 percent (152 of 577). Further, of the
                   152 hospices with deficiencies, 49 percent (75 of 152) were also cited for
                   the same deficiencies during certification surveys over the same period.
                   Thirty-eight percent (222 of 577) of the hospices were the subjects of two
                   or more complaint investigations conducted during the review period.
                   The most frequently cited health deficiencies on certification surveys
                   related to care planning and quality issues
                   The 13 most frequently cited health deficiencies accounted for
                   43 percent of deficiencies cited against the 642 hospices.30 Twelve of
                   these 13 deficiencies related to care planning and quality issues. (See
                   Table 1 on the next page.)

                   Thirty percent of deficiencies were cited for problems with hospices’ care
                   planning for their patients. These cited deficiencies show that a written
                   care plan either was not completed for each patient or lacked important
                   elements of acceptable care planning. Another 11 percent of the health
                   deficiencies cited indicated that efforts to ensure quality patient care
                   were also insufficient. Proper care planning and ensuring that needed



OEI-06-05-00260           M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   10
F     I N D I N G                  S


                                  care is provided are important for establishing an acceptable level of
                                  quality for patient-specific care.


                   Table 1: Most Frequent Health Deficiencies From Certification Surveys
                                                                                                                             Percentage of
    Deficiencies                                                                                                                             Hospices
                                                                                                                              Deficiencies
    (cited if the element is missing or insufficient)                                                                                         Cited*
                                                                                                                               (N=3,534)
    Plan of Care
    L–133 written plan of care established, maintained for each individual                                                       6%            202
    L–135 plan reviewed, updated at intervals specified in plan                                                                  5%            176
    L–137 plan states scope, frequency of services needed                                                                        5%            172
    L–136 plan includes assessment of needs, identification of services                                                          4%            148
    L–134 establishment of plan of care                                                                                          3%            100
    L–200 plan of care for bereavement services reflects family needs                                                            3%            100
    L–155 periodic review and update of each individual’s plan of care                                                           2%             82
    L–211 written instructions for patient care are prepared by RN for aides                                                     2%             74
    Ensuring Quality Patient Care
    L–176 maintains clinical record for every individual receiving care/services                                                 3%            116
    L–210 RN visits home site at least every 2 weeks when aide services provided                                                 3%            115
    L–209 services available/adequate in frequency to meet needs of patients                                                     3%             96
    L–142 conduct self-assessment of quality, appropriateness of care provided                                                   2%             81
    Administrative
    L-108 governing body assumes legal responsibility for hospice’s total
                                                                                                                                 2%            84
           operation
                                                                                Total                                            43%
    *Number of hospices cited does not total 642 because hospices may be cited for more than one deficiency.
    Source: OIG analysis of OSCAR database for 3-year period ending July 5, 2005.



                                  The most frequently cited deficiencies during complaint investigations
                                  also related to care planning and quality
                                  Complaint investigations substantiated 43 percent (423 of 981) of the
                                  complaints, meaning that those complaint allegations were found to be
                                  valid. This resulted in State agencies’ citing health deficencies for
                                  37 percent (360 of 981) of complaint investigations against 152 hospices.

                                  The 12 most frequently cited deficiencies resulting from complaint
                                  investigations accounted for 42 percent of the deficiencies cited.31 (See
                                  Table 2 on the next page.) Eleven of these 12 deficiencies pertained to
                                  problems with patient care planning and quality, the same deficiencies
                                  cited during certification surveys. Twenty percent of the cited
                                  deficiencies show that a written plan was either not prepared for each
                                  patient or lacked important elements. Another 19 percent of health
                                  deficiencies indicated a quality of care problem, almost always in
                                  connection with ensuring that patients received adequate and
                                  appropriate care. Because OSCAR records did not indicate the nature
                                  of the actual complaints, we could not determine whether the cited

      OEI-06-05-00260                     M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT                           11
F    I N D I N G                  S


                                 deficiencies were directly related to the complaints or were discovered
                                 during the complaint investigation.

                  Table 2: Most Frequent Health Deficiencies From Complaint Surveys
                                                                                                                             Percentage of
Deficiency                                                                                                                                   Hospices
                                                                                                                              Deficiencies
(cited if the element is missing or insufficient)                                                                                             Cited*
                                                                                                                               (N=1,347)
Plan of Care
L–133 written plan of care established, maintained for each individual                                                           7%            75
L–136 plan includes assessment of needs, identification of services                                                              6%            64
L–135 plan reviewed, updated at intervals specified in plan                                                                      4%            53
L–137 plan states scope, frequency of services needed                                                                            3%            33
Ensuring Quality Patient Care
L–194 services provided in accordance w/ recognized standards of practice                                                        3%            43
L–176 maintains clinical record for every individual receiving care/services                                                     3%            37
L–103 assures continuity of patient/family care in all settings                                                                  3%            37
L–192 services directed or staffed to assure needs                                                                               3%            35
L–116 make nursing and physician services, drugs available on 24-hour basis                                                      3%            34
L–185 patient’s clinical records must contain complete documentation of all
                                                                                                                                 2%            31
       services/events, including evaluations, treatments, progress notes, etc.
L–209 home health aide and homemaker services must be available and
       adequate in frequency to meet patient’s needs; aide must meet other                                                       2%            25
       specified requirements
Administrative
L–108 governing body assumes legal responsibility for hospice’s total
                                                                                                                                 3%            36
       operation
                                                                                                                     Total       42%
*Number of hospices cited does not total 152 because hospices may be cited for more than one deficiency.
Source: OIG analysis of OSCAR database for 3-year period ending July 5, 2005.



                                                                                                                  According to CMS and State
    CMS and State agencies rarely use methods
                                                                                                                  agency staffs, onsite surveys for
  other than certification surveys and complaint
                                                                                                                  certification and complaint
 investigations to monitor hospice performance                                                                    investigations are their primary
                           and enforce standards                                                                  methods for determining whether
                                                                                                                  hospice providers meet Federal
                                                                                                                  program standards.

                                 In addition to conducting certification and complaint investigation
                                 surveys, CMS and State agencies have other options for oversight of the
                                 Medicare hospice program. CMS can monitor State agencies’ certification
                                 processes (and performance of some hospices) by conducting Federal
                                 comparative surveys and annual State performance reviews.
                                 Both CMS and State agencies can also analyze available, but limited,
                                 certification and complaint investigation data to review hospice
                                 performance. CMS’s only enforcement remedy for poor performance by



    OEI-06-05-00260                      M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT                           12
F   I N D I N G 
S



                      hospices is termination of these providers from the Medicare program;
                      State agencies may have additional enforcement measures.
                      CMS rarely includes hospices in Federal comparative surveys or annual
                      State performance reviews
                      CMS performs comparative surveys to review the accuracy of State
                      agency surveys. The comparative survey is an onsite Federal resurvey
                      of a provider, which could include a hospice, within 60 days of the State
                      agency survey. From July 2002 to July 2005, CMS conducted
                      comparative surveys for 13 of 2,537 hospices, about one-half percent of
                      the certified hospices in our population. We verified these data on
                      comparative surveys with all 10 CMS regional offices. Staff from
                      6 of the 10 regional offices reported that they had conducted
                      comparative surveys for some provider type in the same 3-year period;
                      4 reported that they had not conducted any comparative surveys in that
                      period. Staff from two of the six regional offices indicated that they had
                      sometimes included at least one hospice, and staff from four
                      acknowledged that they rarely or never included hospices.

                      Staff in 5 of 10 CMS regional offices reported conducting performance
                      reviews of State agencies and their survey operations from 2002 to
                      2005. All five staffs indicated that they rarely focused these reviews on
                      survey operations for hospices. Their stated reasons were that hospices
                      account for lower Medicare expenditures than other provider types and
                      that they serve fewer beneficiaries relative to other Medicare programs.
                      They also noted that hospices lack statutory or regulatory requirements
                      that, if present, would make hospices a higher priority for CMS and
                      State agencies.
                      CMS and State agencies infrequently analyze existing hospice performance
                      data; both face several challenges in identifying at-risk hospices as required
                      for FY 2006
                      The CMS FY 2006 Mission & Priority Document requires a new
                      certification survey for a 5-percent sample of at-risk hospices per State
                      (Tier II). CMS requires State agencies to use “their judgment” to
                      identify and target those hospices “most at risk of quality problems.”32
                      CMS has not provided State agencies any direct guidance or specific
                      criteria for identifying these hospices.

                      Staff from 8 of the 10 CMS regional offices reported that they rarely
                      analyze available OSCAR and ASPEN hospice data to identify potential
                      problems for specific hospices or to identify trends among hospices or
                      States. Staff from one regional office reported that for 3 years they had

    OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   13
F   I N D I N G 
S


                      requested training from CMS headquarters regarding how to analyze
                      the available hospice data but had received none. Of the 41 State
                      agencies responding to our survey, 19 reported that they do not define
                      poorly performing hospices; 22 define poor performance but not based on
                      analysis of available data.

                      Two months after the release of the FY 2006 Mission & Priority
                      Document in August 2005, we asked all State agency staffs how they
                      would prioritize their hospice workloads. Of the 42 responding State
                      agencies, 34 answered that they would consider the date of the last
                      survey, but none specifically reported that they would target those
                      hospices for which the last survey was more than 6 years ago. Eighteen
                      State agencies indicated that in FY 2006, they had targeted or would
                      target hospices based on complaint investigations and on the
                      seriousness of any cited deficiencies. Scheduling of survey workloads for
                      FY 2006 also included consideration of hospices with new complaints
                      that warranted investigation (Tier II) and of certification surveys of
                      hospices seeking to become new Medicare providers (Tier III).

                      CMS and State agencies face several data limitations in identifying at-risk
                      hospices. Unlike data for nursing facilities, hospice deficiency data do not
                      include ratings for scope (how many patients are affected) and severity
                      (extent to which patients’ safety or health is affected). In addition, CMS
                      and State agencies have no individual patient outcome and assessment
                      data from hospice providers by which to monitor quality of care. At
                      present, hospices are not required to report individual patient assessment
                      data similar to those reported to the Minimum Data Set for nursing
                      facility residents or maintained on home health agencies and their
                      patients in the Outcome and Assessment Information Set (OASIS). CMS’s
                      proposed changes to the conditions of participation for hospices include
                      capturing individual patient data.33 CMS states that hospices could
                      voluntarily provide the data to an existing private system, e.g., NHPCO.
                      In interviews, CMS staff indicated an interest in collecting such patient
                      information but that it is not currently considering the establishment of
                      such a data repository.




    OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   14
F   I N D I N G       S



                      From July 2002 to July 2005, CMS terminated one hospice from Medicare;
                      few States exercised their own enforcement measures
                      Currently, CMS’s only enforcement remedy for noncompliant hospices is
                      termination from Medicare based on recommendations by the State
                      agencies. In the 3 years from July 2002 to July 2005, one hospice was
                      terminated as a result of severe problems identified during an initial
                      survey. In that same period, 93 hospices voluntarily left the Medicare
                      program—71 of them because of mergers with other hospice providers
                      and 22 for a variety of other reasons.

                      Of the 42 State agencies responding to our survey, 32 reported having
                      their own enforcement measures. These include such remedies as
                      focused in-service training, civil monetary penalties, plans of correction,
                      and loss of State licensure which would result in termination from the
                      Medicare program.34 However, only 8 of these 32 State agencies had
                      invoked any enforcement action against a hospice from July 2002 to
                      July 2005. State agencies’ staffs attributed their limited focus on
                      hospices, and thus their infrequent use of available enforcement
                      measures, to relatively small Medicare expenditures and low beneficiary
                      enrollment. Like the CMS regional office staffs, they also noted that
                      hospices lack the statutory or regulatory requirements to make them a
                      higher priority.




    OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   15
R   E C O        M M E N D A T                    I O N                S
Δ       R E C O M M E N D A T I O N S                                                               





                      CMS is responsible for the oversight of certified Medicare hospices and
                      their terminally ill patients. CMS’s primary sources of information
                      about hospice performance are the results of State agencies’ certification
                      surveys, complaint investigations, and recommendations for
                      termination when warranted. Neither statute nor regulation specifies
                      survey frequency for hospices, but from FY 2000 to FY 2005, CMS policy
                      set the frequency at every 6 years. For FY 2006, because of budgetary
                      constraints, CMS changed its policy on survey frequency to every
                      8 years on average. CMS policy has consistently assigned a higher
                      priority to certification surveys of hospitals, nursing homes, and home
                      health agencies than it has to certification surveys of hospices.

                      Our analysis of OSCAR data through July 2005 found that State agency
                      certifications for 86 percent of hospices met the CMS standard, while
                      14 percent of hospices were past due by 3 years on average. Changing
                      the certification frequency to every 8 years on average will likely
                      improve the compliance rate. However, because this is an average, a
                      State agency could certify some hospices less often than every 8 years
                      and still meet the requirement. Our analysis also showed that State
                      agencies cited a substantial proportion of hospices for health-related
                      deficiencies during certification surveys and complaint investigations.

                      CMS’s oversight activities rarely included hospices in its Federal
                      comparative surveys or annual State performance reviews, nor did CMS
                      staff report analyzing existing hospice performance data. Also for
                      FY 2006, CMS required State agencies to annually target a 5-percent
                      sample of at-risk hospices for certification. However, CMS has not
                      provided State agencies guidance for identifying at-risk hospices, and
                      specific performance data on hospices are limited.

                      Based on our findings, we conclude that CMS needs to strengthen its
                      oversight of the Medicare hospice program to better protect both the
                      program and its beneficiaries. Specifically, we recommend that CMS:
                      Provide Guidance to State Agencies and CMS Regional Offices Regarding
                      Analysis of Existing Data and Identification of At-Risk Hospices

                      Analysis of existing data. CMS should provide written guidance and/or
                      training that specifies key performance indicators or analysis
                      techniques for hospice data. CMS regional office and State agency staffs
                      reported that they rarely analyze available OSCAR and ASPEN data for

    OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   16
R   E C O        M M E N D A T                    I O N                S


                      hospice performance. Alternatively, CMS could develop a standard set
                      of indicators for hospice performance, complete data analysis centrally,
                      and ensure that the resulting reports are routinely provided to CMS
                      regional offices and State agency staffs.

                      Analysis of these existing certification, deficiency, and complaint
                      investigation data would enable CMS and State agencies to identify
                      potential problems at specific hospices or to identify trends among
                      hospices or States. For example, our analysis showed that 15 percent of
                      hospices surveyed between July 2002 and July 2005 received a repeat
                      citation for the same deficiency cited during previous surveys. It also
                      identified hospices which were cited during both certification surveys
                      and complaint investigations in the same 3-year period.
                      Identification of at-risk hospices. CMS should provide written guidance
                      and/or training on how State agencies should analyze available data to
                      identify which hospices are at risk for quality problems. For FY 2006,
                      CMS has required a 5-percent targeted survey of at-risk hospices as a
                      priority activity. However, CMS has not provided State agencies any
                      direct guidance or specific criteria for identifying these hospices so that
                      State agencies can include them in their planned workloads.

                      For better identification of at-risk hospices, CMS could also institute
                      ratings of scope (how many patients are affected) and severity (extent to
                      which patients’ safety or health is affected) for cited hospice deficiencies.
                      These ratings are not currently available for hospices in the OSCAR
                      database. CMS and State agencies also have no individual patient
                      outcome and assessment data from hospice providers with which to
                      monitor quality of care. Our analysis of OSCAR data identified that
                      health deficiencies cited for hospices frequently pertained to patient
                      care planning and quality. To add this more-specific information, CMS
                      could modify existing survey and certification databases to include
                      hospice scope and severity ratings similar to those used for nursing
                      facility deficiency data. Linking scope and severity ratings to the
                      specific health deficiencies cited for a hospice would better inform a
                      decision to terminate a hospice from the Medicare program.
                      Include Hospices in Federal Comparative Surveys and Annual State
                      Performance Reviews
                      CMS’s Federal comparative surveys and annual State performance
                      reviews rarely include hospices. These surveys and reviews allow CMS
                      to ensure that States agencies meet CMS’s performance requirements
                      and to understand overall State agency operations. These surveys also

    OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   17
R   E C O        M M E N D A T                    I O N                S


                      provide CMS the opportunity to review the State survey processes used
                      by the surveyors and to identify inconsistent methods that may require
                      additional training or clarification, such as appropriately identifying,
                      citing, and reporting deficiencies.
                      Seek Regulatory or Statutory Changes To Establish Specific Requirements
                      for the Frequency of Hospice Certification
                      At present, neither law nor regulation specifies the frequency of
                      Medicare certification surveys conducted by State agencies for hospices.
                      However, Section 1861(dd)(2)(G) of the Social Security Act, which
                      applies specifically to hospices, allows the Secretary to promulgate other
                      regulatory requirements. These other requirements could include
                      frequency of hospice certifications. In lieu of a regulatory change, CMS
                      could pursue a statutory change.

                      CMS should seek a regulatory or statutory change, with commensurate
                      funding, that would specify a fixed certification frequency for Medicare
                      hospices. Such a change would enable CMS to maintain its certification
                      schedules for hospices despite general budget cuts. CMS has noted in
                      its FY 2006 Mission & Priority Document that budgetary constraints
                      caused it to change its policy on survey frequency from every 6 years to
                      every 8 years on average. However, a regulatory or statutory change
                      would allow the Secretary to designate a portion of the overall
                      departmental budget for hospice survey and certification.

                      As part of the change, CMS should also seek to increase the frequency of
                      hospice certifications. Surveys every 3 years is the industry standard
                      for hospices, as practiced by the accrediting organizations, JCAHO and
                      CHAP. Nursing facilities and home health agencies, which also care for
                      seriously ill patients, are certified at least every 15 months and every
                      3 years, respectively. For CMS, surveys of hospices are the primary
                      method for gaining information about hospice performance in caring for
                      patients. Staff from two professional associations knowledgeable in
                      hospice issues supported more frequent hospice certifications.
                      Seek Legislation To Establish Additional Enforcement Remedies for Poor
                      Hospice Performance
                      Currently, CMS’s only enforcement remedy against poorly performing
                      hospices is termination from the Medicare program. Our review found
                      that termination is rarely imposed. The cited deficiencies that we
                      reviewed, when taken together, identify potentially serious problems in
                      care planning and quality. In some cases, termination may be the
                      appropriate remedy. However, less severe remedies could be effective

    OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   18
R E O M M E N D A T                    I O N S


                   for addressing performance problems that do not merit termination. A
                   potential array of enforcement measures could include directed plans of
                   correction, directed in-service training, denials of payment for new
                   admissions or all patients, civil monetary penalties, and imposition of
                   temporary management.


                   AGENCY COMMENTS
                   In its comments on the draft report, CMS stated that its management
                   challenge is to make the most effective use of whatever resources are
                   appropriated. To this end, CMS reports diligently exploring and
                   implementing methods to become more efficient in targeting those
                   resources toward providers most in need of closer oversight. For
                   hospices, examples include targeted surveys of at least 5 percent of
                   sample hospices identified by the State as being most “at risk,” inclusion
                   of hospices in State Performance Standards, the addition of contract
                   surveyors to assist CMS in performing oversight surveys, the
                   development of hospice reports to assist States in targeting at-risk
                   hospices, and plans to publish new Conditions of Participation for
                   hospices in 2008 that set expectations for hospice accountability.

                   CMS concurred with our first recommendation to provide greater
                   guidance concerning analysis of existing data and identification of
                   at-risk hospices. Its planned guidance involves alerting States and
                   CMS’s regional offices to the availability and usefulness of a number of
                   reports that can help to identify the at-risk hospices. However, CMS
                   has indicated that given the very limited number of administrative
                   enforcement actions available to it, adding scope and severity indicators
                   for cited hospice deficiencies would add little to no value.

                   CMS concurred partially with our second recommendation. While
                   agreeing to include hospices in annual State performance reviews,
                   which it began in FY 2006, CMS did not concur with greater inclusion of
                   hospices in Federal comparative surveys, citing budget limitations.

                   CMS did not concur with our third recommendation to make a
                   regulatory change to establish frequency requirements for hospice
                   certification. CMS considers this a statutory issue necessitating
                   congressional action to address fundamental resource issues.




 OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   19
R   E C O        M M E N D A T                    I O N                S


                      Finally, CMS neither concurred nor nonconcurred with our fourth
                      recommendation to pursue new enforcement remedies for poor hospice
                      performance. CMS is continuing to consider the recommendation.

                      For the full text of CMS’s comments, see Appendix D.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      We recognize that since this evaluation concluded, CMS has taken a
                      number of steps to improve its oversight of hospices by developing new
                      tools and enhancing available processes. However, we continue to
                      recommend several additional actions.
                      Responding to our first recommendation, CMS states that given the
                      very limited number of administrative enforcement actions available to
                      it, scope and severity indicators would add little to no value to the
                      hospice reports available through its data systems. However, without a
                      scope and severity component associated with deficiencies or
                      complaints, there appear to be few ways to identify the pervasiveness
                      and seriousness of cited problems within hospices. Scope and severity
                      ratings are currently utilized for both nursing homes and home health
                      agencies. Further, given that termination is the only available
                      enforcement remedy, scope and severity ratings would provide
                      additional assessment information to more effectively determine
                      whether to terminate a hospice from the Medicare program or to
                      identify it as an at-risk hospice.

                      We continue to recommend that CMS include hospices in the Federal
                      comparative surveys. These surveys provide CMS with the opportunity
                      to ensure State performance, understand overall State agency
                      operations, and review and ensure consistency of State survey
                      processes.

                      We continue to recommend that CMS set a frequency requirement for
                      hospice certification. We acknowledge that this frequency requirement
                      can be set by a statutory change. CMS has the authority to set a
                      frequency for hospice certification surveys through regulation; however,
                      we acknowledge that a statutory change could also address this issue.
                      Consequently, we changed the third recommendation in the draft report
                      to add the option of seeking statutory change to establish a specific
                      frequency requirement. Either vehicle could be used to address this
                      recommendation.



    OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   20
R   E C O        M M E N D A T                    I O N                S


                      With respect to our final recommendation, we look forward to CMS’s
                      comments to this final report addressing its consideration of
                      establishing additional enforcement remedies for poor hospice
                      performers.




    OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   21
F IE NC DO I M N MG E S N D A T
R                                                I O N                S
Δ     E N D N O T E S                             





                    1	    Public Law 97-248 § 122, 96 Stat. 324, 356 established the
                          Medicare hospice benefit for eligible Medicare Part A beneficiaries.

                    2	    Section 1861(u) of the Social Security Act (the Act) created hospices
                          as a provider category, and Section 1861(dd)(1) defines the scope of
                          benefits for hospice care and the hospice program.

                    3	    42 CFR § 418 sets forth the Conditions of Participation.
                          Specifically, 42 CFR § 418.50(b)(2) states that hospices must
                          provide care “that is reasonable and necessary for the palliation
                          and management of terminal illness and related care. . . .”

                    4	    Medicare Hospice Benefits pamphlet, CMS, July 2005.

                    5	    Section 1861(dd)(1) of the Act.

                    6	
                          “Medicare Program Expenditures Associated With Hospice Use,”
                          LRP-200402-07, RAND Corporation, 2004.

                    7	    RAND Corporation, February 2004, and National Hospice and
                          Palliative Care Organization. Available online at
                          http://rand.org/research_areas/health/ and
                          http://www.nhpco.org/templates/1/homepage.cfm. Accessed
                          September 2005 and March 2006, respectively.

                    8	    “CMS’s Health Care Information System (HCIS), 1998–2004.”
                          Available online at http://www.cms.hhs.gov/FilesForOrderGenInfo/.
                          Accessed August 2, 2005.

                    9	    Overall enrollment increased from 40,025,724 beneficiaries in 2001
                          to 41,728,804 beneficiaries in 2004. “Medicare Enrollment:
                          National Trends 1966 to 2005.” Available online at
                          http://www.cms.hhs.gov/MedicareEnRpts/Downloads/HISMI05.pdf.
                          Accessed July 2005.

                    10	   As of July 5, 2005, according to OSCAR data, there were actually
                          2,757 hospices receiving Medicare reimbursement; 17 hospices were
                          not active Medicare providers.




  OEI-06-05-00260         M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   22
                  11	   “Data Book: Healthcare Spending and the Medicare Program,”
                        Chapter 6, MedPac, June 2004.

                  12	   2005 CMS Statistics. Available online at
                        http://www.cms.hhs.gov/home/rsds.asp. Accessed July 2006.

                  13	   “2005 CMS Statistics,” CMS Pub. No. 03455, Table 30, September
                        2005.

                  14	   42 CFR § 418 sets forth the Conditions of Participation.
                        42 CFR § 488.100 requires an additional condition applicable only
                        to hospices that provide short-term inpatient care and respite care
                        directly, rather than under arrangements with other participating
                        providers.

                  15	   Medicare and Medicaid Programs: Hospice Conditions of
                        Participation, Federal Register, Vol. 70, No. 102, May 27, 2005,
                        Proposed Rule, pp. 30840–30893.

                  16	   Telephone interview with Senior Nurse Consultant, Office of
                        Clinical Standards and Quality, CMS, on October 26, 2006.

                  17	   Section 1864(a) of the Act establishes the relationship between CMS
                        and State agencies relating to Medicare certification processes.

                  18	   CMS OSCAR data extracted July 5, 2005.

                  19    Sections 1819(g)(2)(A)(iii) and 1919(g)(2)(A)(iii) of the Act and
                        42 CFR § 488.308 require that each skilled nursing facility and
                        nursing facility receive a certification survey no later than
                        15 months after the last day of the previous certification survey.
                        Further, the statewide average interval between certification
                        surveys of skilled nursing facilities and nursing facilities cannot
                        exceed 12 months.

                  20	   Section 1891(c)(2)(A) of the Act states that certification surveys will
                        occur no later than every 36 months with more frequent surveys
                        within this interval permitted.




OEI-06-05-00260         M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   23
                  21	   “FY 2005 State Survey and Certification Budget Call Letter,” CMS
                        memorandum to Directors, State Survey and Certification,
                        June 10, 2004.

                  22	   “Quality Assurance for the Medicare & Medicaid Program, FY 2006
                        Mission & Priority Document, Survey and Certification,” CMS,
                        August 5, 2005.

                  23	   “Quality Assurance for the Medicare & Medicaid Program, FY 2006
                        Mission & Priority Document, Survey and Certification” (Managing
                        Resource Limitations), p. 9.

                  24	   42 CFR § 488 (Survey, Certification, and Enforcement Procedures)
                        and 42 CFR § 489 (Provider Agreements and Supplier Approval).

                  25	   CMS plans to replace OSCAR with the Certification and Survey
                        Provider Enforcement Reporting (CASPER) system. CASPER will
                        be an end-product database for reporting collected QIES
                        information. No date is available for this change.

                  26	   For these 17 hospices, the CMS HCIS database showed no Medicare
                        hospice payments in 2004, the last full calendar year of payment
                        data available at the time of our study.

                  27	   CMS requires that surveyors attend its course, Basic Hospice,
                        before conducting certification surveys for hospices. According to a
                        few State agencies’ staffs at the time of our surveys in Summer
                        2005, CMS last offered this course more than 3 years ago.
                        However, CMS staff said the agency offered the training in August
                        2005 and January 2006.

                  28	   For 25 hospices, their last surveys occurred in 1999 when the
                        certification frequency was every 10 years. When we allowed
                        10 years in elapsed time between the prior survey and the last
                        survey for these 25 hospices, none of the last certifications were
                        completed late. These 25 hospices are not included in the
                        33-percent statistic.

                  29	   We excluded 1 percent of the OSCAR records from the deficiency
                        frequency analysis because these records indicated that a health




OEI-06-05-00260         M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   24
                        deficiency was cited; however, the specific deficiency tag was not
                        reported.

                  30	   The table reflects the most frequently cited deficiencies from
                        certification surveys that represented 2 percent or more (before
                        rounding) of all deficiencies cited in the 3-year period ending
                        July 5, 2005.

                  31	   The table reflects the most frequently cited deficiencies from
                        complaint investigations that represented 2 percent or more (before
                        rounding) of all deficiencies cited in the 3-year period ending
                        July 5, 2005. Another 10 deficiencies, not identified in the table,
                        represented less than 2 percent before rounding (1.63 percent to
                        1.93 percent) and accounted for an additional 18 percent of cited
                        complaint deficiencies. Nine of these ten deficiencies were for
                        patient care planning or quality.

                  32	   “Quality Assurance for the Medicare & Medicaid Program, FY 2006
                        Mission & Priority Document, Survey and Certification,” CMS,
                        August 5, 2005.

                  33	   Medicare and Medicaid Programs: Hospice Conditions of
                        Participation, Federal Register, Vol. 70, No. 102, Proposed Rule,
                        pp. 30840–30893, May 27, 2005.

                  34	   Interviews with CMS regional office staff concerning CMS oversight
                        identified possible State enforcement actions beyond CMS
                        terminations.




OEI-06-05-00260         M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   25
Δ      A P P E N D I X                             ~            A

                  Inspection Methodology
                  Data Sources
                  Report findings apply to hospices for which certification resulted from
                  State agency surveys. Survey and certification data found within the
                  Centers for Medicare & Medicaid Services’ (CMS) Online Survey
                  Certification and Reporting (OSCAR) and Medicare payment data from
                  the Healthcare Information System (HCIS) database were primary data
                  sources for analysis. Additional sources were consulted to identify
                  deemed hospices as well as to better understand the oversight
                  environment from State, national, and provider perspectives.

                  Specific information from OSCAR used in this evaluation and available
                  as of July 5, 2005, includes:
                  •	   hospice provider data;

                  •	   survey and certification data, including deficiencies cited for the
                       3-year period July 5, 2002, through July 5, 2005;
                  •	   complaint survey data, including deficiencies cited, for the 3-year
                       period July 5, 2002, through July 5, 2005; and
                  •	   Federal monitoring survey data for the 3-year period July 5, 2002,
                       through July 5, 2005.

                  We also utilized the following information:
                  •	   hospice payment data from CMS’s HCIS for years 1998 through
                       2004;
                  •	   inquiry results from several State agencies in States with extreme
                       cases of certified hospices past due for certification;
                  •	   reports submitted by accreditation organizations to CMS for
                       quarters 1 and 2 of 2005;
                  •	   accreditation activity data for hospices deemed as meeting
                       Medicare requirements obtained directly from the Joint
                       Commission for the Accreditation of Healthcare Organizations
                       (JCAHO);
                  •	   structured discussions regarding CMS’s management of hospices
                       with key personnel from CMS central and regional offices,
                       JCAHO, the Community Health Accreditation Program (CHAP),
                       the National Hospice and Palliative Care Organization (NHPCO),
                       and the National Association for Home Care and Hospice (NAHC);


OEI-06-05-00260         M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   26
 A P     P E N D       I X ~          A


                  •	   results of a national survey of State agencies about hospice
                       oversight and enforcement; and
                  •	   recent survey and certification budget letters and workload
                       guidance sent by CMS to State agencies.
                  Evaluation Population
                  As of July 5, 2005, the OSCAR system showed that 2,774 hospices
                  certified for Medicare by State agencies were active providers. Proper
                  identification of hospices deemed as meeting their certification
                  requirements through an accreditation survey was necessary to exclude
                  them from analysis for this report. However, the number of deemed
                  hospices in OSCAR was significantly lower than the numer reported to
                  us by CMS and the accreditation organizations. As a result, we also
                  relied on hospice data supplied by accreditation organizations to CMS
                  and to the Office of Inspector General directly.

                  CMS requires accreditation organizations to report activities related to
                  deemed hospices on a quarterly basis. Although this is done
                  electronically, the OSCAR system is not typically updated with this
                  information. We requested copies of quarterly reports from CMS and
                  requested data directly from both accreditation organizations.
                  Quarterly reports were available only for recent quarters and only
                  JCAHO fulfilled our request. However, this information proved
                  valuable for identifying all hospices deemed by JCAHO rather than
                  simply those deemed within the last 3 months. Quarterly reports
                  submitted by CHAP were more historical, containing all deemed
                  hospices in addition to those recently accredited and deemed. Based
                  upon our review, we identified 220 deemed hospices that were active at
                  the time of the evaluation. Preliminary analysis of survey frequency
                  was conducted on the remaining 2,554 hospices certified by State
                  surveys.
                  Measures of Certification Frequency
                  To determine certification frequencies, we measured the elapsed time
                  between the last survey date identified in OSCAR and July 5, 2005, for
                  all active hospices certified by State surveys. We verified with CMS
                  that, for each year from fiscal year (FY) 2000 to FY 2005, it had
                  instructed State agencies to certify Medicare hospices every 6 years.
                  For FYs 1998 and 1999, the frequency of certification was set at every
                  10 years.

                  Hospices whose last certification surveys were less than 6 years old as
                  of July 5, 2005, were considered to be current. Among hospices

OEI-06-05-00260          M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   27
 A P     P E N D    I X ~           A


                  considered current on certification, not enough time had elapsed for a
                  certification survey to become due. Hospices whose last surveys were
                  more than 6 years before July 5, 2005, were initially considered to have
                  past-due certifications. However, we allowed a grace period of
                  31 additional days, and only certifications that remained past due after
                  that adjustment were determined as past due for analysis purposes.
                  Thus, for hospices reported as having past-due certifications, more than
                  6 years and 1 month had elapsed between their last survey and July 5,
                  2005.

                  For hospices having both current certifications and prior certification
                  survey dates, we measured the elapsed time between the prior surveys
                  and the last surveys. Here, too, we allowed a grace period of 31 days.
                  When the elapsed time between prior and last surveys exceeded 6 years
                  and 1 month, hospices were classified as having late certification
                  surveys. We made one exception to this measurement. For 25 hospices,
                  their most recent surveys occurred in 1999, when the certification
                  standard was every 10 years. Therefore, when we allowed 10 years in
                  elapsed time between the prior surveys and the last surveys for these
                  25 hospices, we found that none of them was late for its last
                  certification. Approximately one-third of hospices having current
                  certification surveys did not have prior survey dates. They were
                  relatively new providers and their last surveys were conducted for
                  initial certification.
                  Inactive Hospices
                  Initial results, which showed that some hospices were past due on their
                  certifications by up to 13 years, suggested that these hospices might not
                  be active Medicare providers. We matched hospices shown as active
                  providers in OSCAR with HCIS payment data from 1998 through 2004
                  to verify that they had received Medicare payments. This data match
                  showed that 17 hospices had no Medicare payments for 2004 or prior
                  years. Searches of the NHPCO and NAHC hospice provider databases
                  failed to find 8 of the 17 hospices in either database. The remaining
                  nine hospices were in the NHPCO or NAHC databases, but not both.
                  Ultimately, we learned that of the remaining nine hospices, three had
                  invalid phone numbers, five had discontinued hospice services, and
                  one had merged with another hospice.

                  We concluded that all 17 hospices were inactive providers and should
                  have been removed from the OSCAR system. We excluded them from
                  our evaluation population, leaving a total of 2,537 State-surveyed


OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   28
A   P   P E N D   I X ~         A


                  hospices for analysis. This served as the final population used for
                  analysis of survey frequencies, survey deficiencies, complaint surveys,
                  complaint survey deficiencies, Federal monitoring surveys, and
                  enforcement actions.
                  Hospices Selected for Followup
                  Of the States with the greatest number of past-due certification surveys
                  and/or the most time elapsed since surveys were due, we selected a few
                  for additional followup. We identified the top five States in terms of two
                  aspects of late certification surveys: (1) those with the greatest number
                  of late certification surveys and (2) those with the greatest number of
                  late certification surveys more than 6 years past the date for which the
                  certification surveys should have occurred. Three States (California,
                  Illinois, and Michigan) met both qualifications. We then selected the
                  next State remaining on each list (Minnesota and Maryland). We asked
                  these five State agencies to provide explanations as to why so much
                  time had elapsed since the last surveys were conducted for the five
                  hospices most past due.
                  Interviews
                  In addition to analyzing survey frequency and results, we conducted
                  structured interviews with key personnel of CMS headquarters; 10 CMS
                  regional offices; and the accreditation organizations with deeming
                  authority for hospices, CHAP and JCAHO. These discussions provided
                  context for understanding current issues affecting management
                  activities, the extent to which survey data are used to monitor hospice
                  performance, vulnerabilities in oversight activities, and available
                  enforcement actions. We spoke with staff of NHPCO and NAHC about
                  CMS management activities from the hospice provider perspective.
                  State Agency Survey
                  We conducted an e-mail survey of State agencies about oversight and
                  enforcement activities related to hospices within their States. Of the
                  51 agencies surveyed (including Puerto Rico), 42 responded to our
                  questionnaire.




OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   29
                  CMS Program Guidance
                  As stated previously, most criteria for hospice certification and review
                  are found in programmatic guides, rather than statute or regulation.
                  The 6-year hospice certification standard used in this evaluation was
                  outlined in the FY 2005 State Survey and Certification Budget Call
                  Letter. We found that the same standard had been applied annually
                  since FY 2000. Budget call letters are sent annually by CMS to State
                  agencies. They direct how survey and certification workloads for all
                  provider types should be prioritized for the year. Provider types are
                  prioritized using a four-tier system. Tier I is given top priority, followed
                  by Tiers II through IV. For FY 2005, State agencies were expected to
                  prioritize their work using that system. Hospices were placed in
                  Tier III, except for complaint investigations. Complaint investigations
                  were classified as Tier II activities, regardless of the provider type being
                  investigated.

                  During this evaluation, CMS released new guidelines for the next fiscal
                  year. On August 5, 2005, CMS issued the “Quality Assurance for the
                  Medicare & Medicaid Program, Fiscal Year 2006 Mission & Priority
                  Document, Survey and Certification.” Though renamed, it serves the
                  same purpose as previous budget call letters. The FY 2006 Mission &
                  Priority Document relaxed frequency guidelines for certifications of
                  hospices and other non-long-term-care providers. Non-long-term-care
                  provider certifications are still a Tier III activity, but the requirement
                  that they occur at least every 6 years was replaced with a target of an
                  8-year average. Under Tier IV, States are encouraged to conduct
                  additional surveys and bring the average down to 6 years, if resources
                  permit.




OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   30
  Δ             A P P E N D I X                                       ~            B


                      Fiscal Year 2005 Selected Centers for Medicare & Medicaid Services
                                Priority Survey Activities for Selected Providers
PROVIDER OR
                                Tier I                                              Tier II                                         Tier III         Tier IV
ACTIVITY
                         Specific administrative and systems activities are identified under each tier. Activities in each tier must be
Core                     completed before activities of the subsequent tiers are begun. Examples of activities within each tier
Infrastructure           include timely entry of survey workload data, maintenance of all systems and hotlines, performance
                         measurement activities, training, etc.
Complaint
                                                  Complaint investigations of all provider types
Investigations
                                                                                                                             Initial certification
New Provider
                                                                                                                             surveys of all
Initial Surveys                                                                                                              provider types
                                                  – Nursing Home Oversight and Improvement
                                                  Program expectations delineated by the
                                                  Centers for Medicare & Medicaid Services
                                                  (CMS) and through various memorandums
                                                  requiring States to intensify their review of
                                                  facilities’ abilities to prevent bedsores,
                         Certification            dehydration, malnutrition
                         surveys,
Nursing
                         frequency                – Fund additional costs associated with
Facility                 requirements per         immediate sanctions
                         nursing home
                                                  – Fund additional costs associated with special
                                                  focus initiatives and conducting surveys on
                                                  repeat offenders with serious violations

                                                  – Fund costs associated with staggering timing
                                                  of nursing home inspections
                                                                                                                             5% validation
                         Recertification
Home Health                                                                                                                  surveys of deemed
                         surveys within 3
Agency                                                                                                                       home health
                         years
                                                                                                                             agencies

                         1% sampled
                         validation
Hospital
                         surveys
Accredited               identified by
                         CMS
                                                  – 33% recertification covers all levels of
                                                  facilities
Hospital
                                                  – 5% prospective payment system-excluded
Nonaccredited                                     hospitals, rehabilitation units, and psychiatric
                                                  units no later than
                                                  90 days after cost reporting period
                                                                                                                             – Recertification
                                                                                                                             surveys every 6
                                                                                                                             years
Hospice*
                                                                                                                             – 5% validation
                                                                                                                             surveys of deemed
                                                                                                                             hospices
*The identified survey priority activities for hospices are the same as those for ambulatory surgical centers, outpatient physical therapy
providers, comprehensive outpatient rehabilitation facilities, portable x-ray providers, and rural health clinics. Only the required hospice
validation survey is not required of these.
Source: CMS’s fiscal year 2005 State Survey and Certification Budget Call Letter to State agency directors and regional CMS administrators. Shaded areas
indicate no suggested priority activity for that tier.




          OEI-06-05-00260                       M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT                               31
 Δ           A P P E N D I X                                    ~            C


         Fiscal Year 2006 Changes to Selected Centers for Medicare & Medicaid Services
                         Priority Survey Activities for Selected Providers
PROVIDER OR
                           Tier I                                    Tier II                                     Tier III                     Tier IV
ACTIVITY
Core               Changed from listing under tiers in FY 2005 to a standard core requirement,
Infrastructure     all of which must be completed

Complaint
                   Unchanged from FY 2005
Investigations
New Provider
                                                                                                        Initial certification surveys of all provider types
Initial Surveys
Nursing Facility   Unchanged from FY 2005

                   – 36-month
                                                   – 5% additional targeted
                   maximum interval                                                                                                 24-month average for
                                                   sample survey identified by
                   for certification                                                                                                additional surveys based
                                                   the Centers for Medicare &
                   surveys                                                                                                          on State judgment for
                                                   Medicaid Services (CMS) as
                                                                                                                                    agencies most at risk for
                                                   most at risk of poor care;
Home Health        – Extended surveys                                                                                               poor care to ensure that
                                                   may count toward
Agency             required when                                                                                                    all agencies are surveyed
                                                   36-month interval
                   complaint                                                                                                        on average every 24
                   investigations                                                                                                   months (to ensure 50%
                                                   – 5% validation surveys of
                   identify                                                                                                         agencies surveyed each
                                                   deemed home health
                   substantiated                                                                                                    year on average)
                                                   agencies identified by CMS
                   noncompliance
                   – 1% sampled
                   validation surveys
                   of accredited
                   hospitals identified
                   by CMS

                   – 1% targeted
                   additional stratified
                                                   5% validation surveys of
Hospital           random sample
                                                   deemed Critical Access
Accredited         surveys
                                                   Hospitals identified by CMS
                   – Full certification
                   surveys for each
                   complaint
                   investigation
                   resulting in
                   substantiated
                   noncompliance
                                                                                                                                    – 3-year average based
                                                                                                                                    on additional
                                                                                                        – 4.5-year average for
                                                                                                                                    recertification surveys
                                                                                                        additional
                                                                                                                                    based on State
                                                    – 6-year maximum interval                           recertification surveys
                                                                                                                                    determination of most at
                                                   between certification                                based on State
                                                                                                                                    risk of poor care
                                                   surveys                                              determination of most
                                                                                                        at risk of quality
Hospital                                                                                                                            – Recertification surveys
                                                   – 5% targeted sample                                 problems (at least
Nonaccredited                                                                                                                       of all new critical access
                                                   survey identified by Centers                         22% per year)
                                                                                                                                    hospitals within
                                                   for Medicare & Medicaid
                                                                                                                                    12 months of initial
                                                   Services (CMS) as most at                             – Inpatient
                                                                                                                                    survey
                                                   risk of providing poor care                          prospective payment
                                                                                                        system surveys (new
                                                                                                                                    (both to ensure 33% of
                                                                                                        and 5% existing)
                                                                                                                                    hospitals are surveyed
                                                                                                                                    annually)




       OEI-06-05-00260                    M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT                                    32
  A     P     P E N D               I X ~          C


              Fiscal Year 2006 Changes to Selected Centers for Medicare & Medicaid Services
                              Priority Survey Activities for Selected Providers
PROVIDER OR
                                     Tier I                                  Tier II                                     Tier III                  Tier IV
ACTIVITY
                                                                                                                – 8-year average for
                                                                                                                additional
                                                                                                                recertification surveys
                                                              5% targeted sample
                                                                                                                based on State            6-year average for
                                                              surveys based on State
                                                                                                                determination of most     additional recertification
                                                              judgment of most at risk of
                                                                                                                at risk quality           surveys (to ensure that
Hospice*                                                      quality problems that may
                                                                                                                problems                  all hospices in State are
                                                              count toward the State
                                                                                                                                          surveyed no less than
                                                              average 8-year survey
                                                                                                                – 5% validation           every 6 years)
                                                              interval in Tier III
                                                                                                                surveys of deemed
                                                                                                                hospices identified by
                                                                                                                CMS
*The identified survey priority activities for hospices are the same as those for ambulatory surgical centers, outpatient physical therapy
providers, comprehensive outpatient rehabilitation facilities, portable x-ray providers, and rural health clinics. Only the required hospice
validation survey is not required of these.

Source: CMS’s FY 2006 Survey Frequency & Priority chart in the FY 2006 Mission & Priority Document for Survey and Certification. Other provider types
omitted for purposes of this report include psychiatric hospitals, end stage renal disease facilities, ambulatory surgical centers, outpatient physical therapy
providers, comprehensive outpatient rehabilitation facilities, portable x-ray providers, and rural health clinics. Shaded areas indicate no suggested priority
activity for that tier.




            OEI-06-05-00260                       M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT                                 33
A   P   P E N D       I X      ~            D


                                             Agency Comments




    OEI-06-05-00260         M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   34

OEI-06-05-00260   M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   35
OEI-06-05-00260   M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   36
OEI-06-05-00260   M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   37
OEI-06-05-00260   M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   38
Δ   A C K N O W L E D G M E N T S                                                                 


                  This report was prepared under the direction of Kevin K. Golladay,
                  Regional Inspector General for Evaluation and Inspections in the Dallas
                  regional office.

                  Leah K. Bostick served as the team leader for this study. Scott
                  Whitaker from the Office of Evaluation and Inspections Dallas regional
                  office contributed to this report. Central office staff who contributed to
                  this report include Tricia Davis, Sandy Khoury, and Barbara Tedesco.




OEI-06-05-00260        M E D I C A R E H O S P I C E S : C E R T I F I C AT I O N   AND   CMS OVERSIGHT   39
